                             NATIONAL SCIENCE FOUNDATION
                                   4201 Wilson Boulevard
                                 ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL


MEMORANDUM

DATE:         March, 10, 2011

TO:           Martha A. Rubenstein
              Director and Chief Financial Officer
              Office of Budget, Finance, and Award Management (BFA/OAD)

FROM:         Dr. Brett M. Baker /s/
              Assistant Inspector General for Audit

SUBJECT:      Limited Scope Review of Recovery Act Quarterly Reporting Processes –
              California Academy of Sciences, Report Number OIG-11-1-008


        As part of our oversight responsibilities, the Office of Inspector General (OIG) has
conducted reviews of institutions that have received National Science Foundation (NSF) grants
funded by the American Recovery and Reinvestment Act (ARRA or Recovery Act) to assess the
overall quality of required quarterly reporting. Such quarterly reports contain detailed
information on ARRA projects and activities and are the primary means for keeping the public
informed about the way funds are spent and the outcomes achieved. Our review objectives
include determining whether the California Academy of Sciences (Academy) had established an
adequate system of internal controls to provide reasonable assurance that (1) Recovery Act funds
were segregated and separately tracked in its project cost accounting system and (2) quarterly
reporting was timely, accurate, and fully compliant with Section 1512 ARRA reporting
requirements. A detailed description of background, objectives, scope, and methodology for the
review is in Appendix A.

Results of Review

        Our review found that the Academy had properly segregated $1.9 million in NSF funds
awarded for its one ARRA grant in its accounting system and timely submitted Recovery Act
quarterly reports. However, the Academy’s processes for compiling and reviewing the quarterly
ARRA information need improvement to ensure that all data elements reported are accurate,
complete, and fully compliant with Section 1512 requirements. Specifically, our review
disclosed data reporting errors in the December 2009 and March 2010 ARRA quarterly reports,
including jobs reporting, total funds received, total funds expended, and vendor payments. In
addition to the data reporting errors, the Academy did not incorporate the required ARRA and
NSF award terms and conditions in its $231,084 Recovery Act-funded subaward to establish
appropriate legal requirements for compliance with federal grant regulations.

        These exceptions occurred because the Academy did not (i) thoroughly understand the
intricacies of federal ARRA reporting requirements; (ii) establish formal ARRA reporting
guidance, (iii) establish a process for performing a comprehensive data quality review of ARRA
data to preclude clerical and/or posting errors; and (iv) understand requirements to flow-down
ARRA and NSF terms and conditions to subrecipients. Given the unprecedented accountability
and transparency goals of the Recovery Act, the development of effective processes and
oversight functions are critical factors for ensuring ARRA data quality and proper management
of Recovery Act funds.

        We provided a draft of this memorandum to the Academy management for its review and
comment. In addition, we discussed the findings with the Academy officials at the completion of
our on-site review work so that timely improvements could be implemented to promote the
highest degree of transparency and accountability over Recovery Act funds. The Academy
concurred with the findings and stated that they have already implemented recommendations 1.2,
2.1 and 2.2. Their comments and position on findings and recommendations are included in its
entirety in Appendix B.

       With regard to recommendation 1.1, we have revised and redirected it from NSF to the
Academy in the final audit report. The recommendation requires the Academy to establish and
implement a policy to ensure staff members responsible for ARRA reporting stay informed of
OMB and NSF changes and updates to Recovery Act reporting requirements and seek OMB
and/or NSF technical assistance for clarification of any ambiguities.

        To help ensure the recommendations are resolved within six months of audit report
issuance pursuant to Office of Management and Budget Circular A-50, please provide the audit
resolution memorandum for our review when NSF has obtained an acceptable Corrective Action
Plan. The Plan should detail specific Academy actions taken and/or planned to address each
audit recommendation. Milestone dates should be provided for corrective actions not yet
completed.

       We appreciate the cooperation that was extended to us during our review. If you have
any questions, please contact Jerel Silver at extension 8461 or Mark Kim at extension 8531.


cc:    Mary Santonastasso, Division Director, DIAS
       Dale Bell, Deputy Division Director, DIAS
       Alex Wynnyk, Branch Chief, CAAR/DIAS
       Debra Pettit, Deputy Assistant Inspector General for Audits, NASA OIG




                                               2
                             Audit Findings and Recommendations

Finding 1: The Academy Reported Incorrect Data in the Quarterly ARRA Reports

        The Academy incorrectly reported several key data elements in its ARRA reports for the
December 2009 and March 2010 reporting periods. For the December reporting period, the
Academy incorrectly reported job numbers, total expenditures, total funds received, and vendor
payments. In the March reporting period, the Academy corrected most of the reporting errors,
but it continued to report the jobs number incorrectly.

Incorrect ARRA Jobs Numbers

        Section 5.7 of OMB Memorandum M-10-08 1 requires prime recipients to generate
estimates of jobs impact by directly collecting specific data from subrecipients and vendors on
the total jobs created or retained on ARRA-funded projects and activities. In addition, the prime
recipients are required to report jobs for its employees expressed as “full-time equivalents”
(FTE), which is calculated as the number of hours worked in funded jobs created or retained
divided by the number of hours worked in a full-time schedule, as defined by the recipient.

        Contrary to the OMB requirements, the Academy incorrectly reported the jobs numbers
in the December 2009 and March 2010 ARRA reports because it did not calculate jobs using the
FTE methodology and did not include vendor jobs. Specifically, Academy officials mistakenly
believed that only full-time employees working on the ARRA grant should be reported as jobs in
the quarterly report. Therefore, the Academy did not include the Principal Investigator because
the researcher had only devoted 50 percent effort to the ARRA project. In addition, the
Academy officials did not review actual salary charges as a basis for reporting ARRA jobs.
While the cognizant official stated that two full-time employees worked on the ARRA grant, our
analysis of actual salary charges for both reporting periods disclosed that one employee worked
100 percent on the project and two others employees worked 50 percent each. While the
reported count of two ARRA jobs reported for each reporting period was coincidentally correct,
the methodology used was not compliant with the OMB-mandated FTE methodology.

        In addition, the Academy did not appropriately include ARRA vendor jobs in the
December 2009 and March 2010 reports because officials were not aware of this specific OMB
reporting requirement. Our analysis found that the Academy had hired a consultant to develop
web-pages related to the ARRA grant and had paid the consultant $6,630 in the December
reporting period and $8,210 in the March reporting period. As such, the consultant’s FTEs
should have been obtained from the vendor and added to CAS’ reported job numbers.




1
         OMB Memorandum M-10-08, Updated Guidance on the American Recovery and Reinvestment Act – Data
Quality, Non-Reporting Recipients, and Reporting of Job Estimates, issued December 18, 2009.

                                                  3
Incorrect ARRA Expenditures and Funds Received

       Section 2.5 of OMB Memorandum M-09-21 2 requires ARRA data elements to be
cumulatively reported in order to encompass the total amount of funds received and expended to
date. This requires that the December 31, 2009 report include funding from the NSF award date
through December 31, 2009, with each subsequent quarterly report also delineated on a
cumulative basis.

        Contrary to OMB requirements, the Academy did not report the cumulative amounts for
ARRA expenditures and funds received since grant inception in its December 2009 report.
Instead, the Academy understated both of these data elements by $1,332 because it reported the
dollars expended and received only during the December quarter. The Academy correctly
reported the cumulative amounts in the March 31, 2010 report.

Incorrect ARRA Vendor Payments

        Section 2.4 and 2.5 of OMB Memorandum M-09-21 require recipients to report on a
cumulative basis the total number and dollar of vendor payments under $25,000 in each quarterly
report. However, the Academy did not follow a consistent and reasonable methodology to
compile and accurately report these two ARRA data elements. Although Academy officials
informed us that they excluded “small expenditures” less than $100 from the total vendor count
and payment amount, we found some vendor payments under $100 were mistakenly included
while other payments over $100 were excluded. For example, the Academy included a $95
vendor payment but excluded a $547 payment. In total, the Academy under-reported $1,283 in
ARRA vendor payments in the December 2009 report.

Increased Public Scrutiny on the Use of Recovery Act Funds

        As a result of the errors identified in the four key ARRA data fields, the Academy has not
effectively achieved the unprecedented accountability and transparency goals required by the
Recovery Act. While the Academy only has one ARRA grant, the award totaling $1.9 million is
a significant amount of its NSF funding, thus it is essential that the American public and other
stakeholders be provided accurate information on the number of ARRA jobs created or retained
as well as the total amount of funds expended. Pursuant to its NSF grant terms and conditions,
the Academy is obligated to provide accurate and complete reporting each quarter on how
ARRA funds have been utilized to help stimulate the country's economic recovery.




2
       OMB Memorandum M-09-21, Implementing Guidance for the Reports on Use of Funds Pursuant to the
American Recovery and Reinvestment Act of 2009, issued June 22, 2009
                                                   4
Factors Contributing to ARRA Reporting Errors

        The reporting errors identified occurred because the Academy lacked (i) a thorough
understanding of the intricacies of federal ARRA reporting requirements, (ii) formal established
procedures for ARRA reporting, and (iii) an adequate data quality review process to preclude
reporting errors. Specifically, cognizant officials responsible for ARRA reporting were
uncertain about some of the OMB requirements because they had not received adequate
instruction. As a small recipient with only one ARRA grant, officials were faced with the
challenge of how to handle the increased responsibility of reading, interpreting, and correctly
applying the extensive OMB reporting guidance. Given the volume and the complexity of the
OMB guidance and the last minute changes prior to each ARRA reporting quarter, it was
understandably a difficult task for Academy personnel. As such, we found that officials
responsible for ARRA reporting were unaware of the following two key OMB reporting
requirements: mandatory use of a full-time equivalent methodology for calculating jobs and
reporting of vendor and subrecipient 3 jobs.

         The Academy lacked adequate policies and procedures for its ARRA reporting process.
Although it had developed written federal grant management policies and procedures (e.g.
Accounting Policy Manual), it lacked formal guidance for reporting and complying with new
ARRA grant requirements. Since the Academy has only one ARRA award and two subawards, 4
it is not critical for the Academy to develop extensive ARRA reporting policies and procedures.
However, there does need to be some guidance, albeit, limited guidance established to provide
adequate internal control measures to meet the enhanced accountability and transparency goals
required by the Recovery Act.

        Contrary to Section 4.2 and 4.3 of OMB Memorandum M-09-21, 5 the Academy has not
established adequate data quality review procedures to ensure all ARRA data elements are
accurate, complete, and fully compliant with Section 1512 reporting guidance. Our review found
that the Academy's supervisor responsible for reviewing the quarterly ARRA report does not
evaluate the supporting documentation to verify the accuracy or completeness of key data
elements. This occurred because supporting documentation is not always maintained to support
each data element and forwarded with the ARRA report for quality review. For example, our
review found that no documentation was maintained supporting the number of ARRA jobs
reported. As such, the supervisor is only checking for any blank data fields and the overall
reasonableness of the information without verifying that the key data elements are accurate and
complete.



3
         At the time of the audit, the Academy had issued only one subaward to a Canadian University; therefore,
jobs reporting was not required for this foreign entity per OMB reporting guidance.
4
         The Academy had issued one ARRA subaward and received a subaward funded by NSF ARRA funds.
5
          OMB Memorandum M-09-21, Implementing Guidance for the Reports on Use of Funds Pursuant to the
American Recovery and Reinvestment Act of 2009, issued June 22, 2009, requires “Prime recipients, as owners of
the data submitted, [to] have the principal responsibility for the quality of the information submitted.” Specifically,
the prime recipient is responsible for performing data quality reviews to identify reporting errors and making
appropriate and timely corrections.
                                                           5
Recommendations:

We recommend that the NSF Director of the Division of Institution and Award Support,
coordinate with the oversight audit agency, as needed, to require the Academy to:

1.1 Establish and implement a policy to ensure staff members responsible for ARRA reporting
    stay informed of OMB and NSF changes and updates to Recovery Act reporting
    requirements and seek OMB and/or NSF technical assistance for clarification of any
    ambiguities.

    OIG Comment

    The subject recommendation was revised and redirected from NSF to the Academy in the
    final audit report. As such, the Academy should provide its comments to this
    recommendation, including any actions taken and/or planned, in its Corrective Action Plan
    during the formal NSF audit resolution process.

1.2 Improve internal control measures for ARRA reporting as follows:

     a.   Develop policies and procedures covering key aspects of ARRA reporting. At a
          minimum, such guidance should include processes for calculating ARRA jobs using
          the FTE methodology and including vendor job estimates, cumulative reporting of
          expenditures and funds received, and accurate reporting of vendor payments.

     b.   Establish a formal data quality review process to ensure ARRA quarterly reports are
          accurate, complete, and fully compliant with OMB reporting requirements.

     c.   Develop and maintain supporting documentation for key ARRA data elements with
          quarterly reports to allow for an effective data quality review process.

    Academy Response

    The Academy concurred with the finding and stated that its staff familiarized themselves
    with the ARRA reporting requirements, and it established additional policies and procedures
    addressing the reporting requirements for ARRA grants in its Accounting Guide. The
    Academy also stated that it had implemented new internal control measures to establish a
    formal data review process and to maintain supporting documentation.

    OIG Comment

    The Academy’s response met the intent of the recommendation.




                                               6
Finding 2: Subaward Did Not Include Required ARRA Terms and Conditions

        NSF’s ARRA Terms and Conditions require recipients to provide timely quarterly
reporting, segregate the Recovery Act funds, and incorporate the ARRA-related terms and
conditions into any subrecipient agreements. In addition, the NSF grant letter for the Academy's
ARRA award explicitly stated that any subaward agreement include the flow-down provisions
specified in Articles 8.a.4. and 9 of the standard NSF Grant General Conditions (GC-1). 6 These
Articles address the federal grant administrative requirements and cost principles.

         However, the Academy did not, as required by NSF’s award letter, incorporate the
ARRA and standard NSF flow-down provisions in its $231,084 subaward to a Canadian
university. Specifically, the Academy did not (i) identify the subaward as being funded by the
Recovery Act, (ii) require the segregation of such funds, and/or (iii) stipulate the quarterly
ARRA reporting requirements. In addition, the subaward agreement lacked a key flow-down
provision requiring compliance with federal grant administrative requirements and cost
principles. Without reference to such grant standards, the Academy lacks any established
criteria for determining whether the subrecipient’s ARRA expenditures are reasonable,
allowable, and allocable. This occurred because Academy officials were not aware that ARRA
and certain standard NSF grant terms and conditions were explicitly required to be included in its
subaward agreements.

         The Academy’s failure to incorporate the terms and conditions, as required by NSF’s
award letter, is inconsistent with enhanced Recovery Act transparency and accountability goals.
Without adequate contractual subaward terms, the Academy had significantly compromised its
ability to fulfill its responsibility to provide proper stewardship of its NSF grant funds.
Essentially, it lacked any legal basis to ensure the Canadian subrecipient is properly managing
and expending its Recovery Act funds in a way that is in keeping with U.S. Federal Government
grant and ARRA requirements.

Recommendations:

We recommend that the NSF Director of the Division of Institution and Award Support,
coordinate with the oversight audit agency, as needed, to require the Academy to:

2.1 Renegotiate its subaward agreement with University of Guelph to incorporate the required
    ARRA and NSF grant terms and conditions.

2.2 Establish a standard subaward agreement for federal grants to ensure appropriate
    flow-down provisions are included to ensure proper stewardship and accountability of
    federal assistance funds.




6
         Articles 5 and 40 of the NSF Research Terms and Conditions include the same subaward flow-down
provisions.

                                                      7
Academy Response

The Academy concurs with the finding and stated that it implemented the recommendations
by incorporating an amendment to the original subaward to address the federal grant
administrative and ARRA reporting requirements and by establishing a standard subaward
agreement that includes the required flow-down provisions.

OIG Comment

The Academy’s response met the intent of the recommendations.




                                         8
                                                                             Appendix A


                      Background, Objectives, Scope, and Methodology

Background:

Recovery Act Reporting Requirements:

        On February 17, 2009, the American Recovery and Reinvestment Act of 2009 (Recovery
Act or ARRA) was enacted to help the nation recover from a severe economic downturn. The
Recovery Act emphasizes unprecedented levels of accountability and transparency over the
$787 billion of public funds committed by Congress, of which $3 billion was received by NSF.
The public expects that the use of ARRA funds will result in a positive impact to our nation's
economy, including jobs creation and retention. Accordingly, Section 1512 of the Recovery Act
requires recipients to submit reports on ARRA activity no later than 10 days after the end of each
reporting quarter. The first ARRA quarterly report was required to be submitted for the period
ending September 30, 2009.

        ARRA reporting instructions are contained in the Office of Management and Budget
(OMB) guidance. OMB is the primary Federal agency responsible for providing Section 1512
reporting guidance used by Federal agencies, grant recipients, and grant subrecipients. The
Federal guidance clearly establishes that recipients have primary responsibility for the quality of
data that is submitted. In addition, NSF has issued supplemental guidance to its recipients for
ARRA reporting.

        OMB published a Recipient Reporting Data Model to define the 99 data elements required
to be reported for each ARRA grant for the September 2009 reporting period. Clarifications to the
elements were published by OMB as a set of Frequently Asked Questions with extensive updates
published to address both recipient and federal agency concerns; many of which were issued only a
short time prior to the end of each ARRA reporting quarter. Some of the key data elements
required to be reported include award number, date, and amount; award description; quarterly
award activities; funds received/invoiced; award expenditures; number of and description of jobs
retained or created; number and dollar of sub-awards and vendor payments; project status; and
final report status.

NSF Recipient Reviewed:

         The California Academy of Sciences (Academy) is a non-profit scientific and cultural
institution located in San Francisco, CA. The Academy offers an aquarium, a planetarium, a
natural history museum, and a rainforest to the public. As an international center for scientific
education and research, the Academy employs 623 staff members, including over 50 professional
educators and scientists, supported by more than 100 Research and Field Associates and over
300 Fellows. For the period ending June 30, 2010, the Academy's federal expenditures totaled
$1.1 million, including approximately $954,000 provided by NSF.


                                                 9
       As of March 31, 2010, the Academy had been awarded one ARRA grant for $1.9 million,
which accounted for 42 percent of its total NSF grant portfolio of $4.6 million and 10 awards.
ARRA expenditures totaled $120,440 or 6.3 percent of total Recovery award funds as of March
31, 2010. At the time of our review, the Academy had issued one ARRA subaward to a foreign
university and received one ARRA subaward funded by a NSF award. However, both the
subaward issued and received had no expenditures.

      The Academy's Financial Operations Group is responsible for the ARRA reporting and
monitoring functions. Specifically, one employee is responsible for all ARRA reporting and
monitoring, and the Controller is responsible for oversight of the reporting process.

Review Objectives:

       Our review objectives were to determine whether the Academy had established an
adequate system of internal controls to provide reasonable assurance that (1) Recovery Act funds
were segregated and separately tracked in its project cost accounting system and (2) quarterly
ARRA reporting was timely, accurate, and fully compliant with Section 1512 reporting
requirements.

Scope and Methodology:

        Our review focused on the Academy's December 2009 ARRA report, but included review
of the March 2010 report to assess improvements made in its reporting processes. We reviewed
the University’s processes for compiling and reporting Recovery Act data elements. Of the 99
ARRA data fields required, we selected key elements that were either deemed critical to ensuring
transparency or were considered more at risk of being reported inconsistently or inaccurately.
Accordingly, our review focused on the following eight data elements: the number of jobs, funds
received/invoiced, expenditures, vendor payments, sub-award amounts, Quarterly
Activities/Project Description, project status, and final report status indicator. To gain an
understanding of the Academy’s processes for compiling and reporting of the ARRA data
elements, we conducted a limited review of internal controls related to our audit objectives. Our
review included the following steps:

       •   Reviewed criteria for ARRA reporting including Section 1512 of the
           Recovery Act and OMB and NSF guidance.

       •   Reviewed Academy policies, procedures, and processes for collecting,
           compiling, reviewing, and reporting ARRA data.

       •   Interviewed cognizant Academy officials, including the principal investigator,
           to gain an understanding of their role in the ARRA project management and
           reporting process.

       •   Performed analytical procedures to understand and evaluate the Academy's
           Recovery Act reporting processes and related controls. This included the
           processes for reporting Quarterly Activities/Project Description, project status,


                                                10
           and final project status; and ensuring ARRA funds are not awarded to
           debarred or suspended parties.

       •   Performed limited procedures to determine the reasonableness of the reported
           data elements when compared to supporting documentation for funds
           received/invoiced, expenditures, vendor payments, and sub-award amounts.

       •   Reconciled the number of jobs created or retained to payroll records to
           determine the reasonableness of the number of jobs reported for the ARRA
           grant.

       •   Discussed fieldwork results with Academy management officials.

        We performed the on-site review at the Academy from May 3 to May 6, 2010.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan the review to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based
on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for the findings and conclusions contained in the report.




                                               11
                                           Appendix B

Academy Written Comments on Draft Report




                      12
13
